Report No. D-2008-136     September 30, 2008




Payments for Patients Referred to Overseas
    Providers Under the Supplemental
          Health Care Program
Additional Information and Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ASD(HA)                       Assistant Secretary of Defense (Health Affairs)
DFAS                          Defense Finance and Accounting Service
MTF                           Military Treatment Facility
SHCP                          Supplemental Health Care Program
TMA                           TRICARE Management Activity
U.S.C.                        United States Code
WPS                           Wisconsin Physician Services
                                      INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA Z2Z0Z


                                                                               September 30, 2008

MEMORA DUM FOR ASSISTANT SECRETAR Y OF DEFENSE (HEALTil AFFAIRS)
              ASSISTA T SECRETAR Y OF THE AIR FORCE (FfNANCIAL
                  MANAGEMENT AND COMPTROLLER)
              DIRECTOR. DEFENSE 1'1 ANCE AND ACCOUNTING SERVICE
              AUDITOR GENERAL, DEPARTMENT OF TI IE ARMY
              NA VAL INSPECTOR GENERAL

SUBJECT: Payments for Patients Referred to Overseas Providers Under the Supplemental
         Health Care Program (Report No. D-2008-136)


We arc providing this report for your infom13tioll and usc. We considered comments from the
Assistant Secretary of Defense (Health Affairs), the Surgeon General of the Air Force. and the
Defense Finance and Accounting Service when preparing the final report.

Comments on the draft report conformed 10 the requirements of DoD Directive 7650.3 and left no
unresolved issues. Therefore. no additional comments arc required.

We appreciate the courtesies extended to the starr: Please direct questions to Mr. Michael A.
Joseph at (757) 872-4698 or Mr. James F. Degaraffal (757) 872-4815, extension 224. The learn
members are listed inside the back cover.
                    Report No. D-2008-136 (Project No. D2007-D000LF-0227.000)
                                        September 30, 2008

               Results in Brief: Payments for Patients
               Referred to Overseas Providers Under the
               Supplemental Health Care Program

What We Did                                                  • Transfer responsibility to a qualified
The objective of the audit was to determine                    health care claims processor for processing
whether controls are adequate over payments for                and paying claims for overseas health care
patients referred by military treatment facilities             referred by military treatment facilities.
to overseas health care providers under the                  • Recoup funds for duplicate payments
Supplemental Health Care Program. We                           identified during the audit (details
compared payments made by overseas military                    provided to TRICARE Management
installations and three Defense Finance and                    Activity under separate cover).
Accounting Service centers for referred                      • Issue guidance to the Surgeons General of
overseas health care to payments made by a                     the Army, Navy, and Air Force stating that
TRICARE contractor that pays for most                          overseas military treatment facilities
nonreferred overseas health care.                              should not deposit checks from TRICARE
                                                               health care claims processors into military
What We Found                                                  treatment facility accounts.
                                                         We recommend that the Surgeon General of the
•   Multiple organizations using independent             Air Force issue guidance to all overseas military
    processes paid for overseas referred health          treatment facilities to immediately discontinue
    care claims.                                         depositing checks from TRICARE health care
•   Using the limited overseas referred care data        claims processors to military treatment facility
    available, we identified 90 duplicate                accounts.
    payments by multiple organizations for
    overseas health care amounting to                    Client Comments and Our
    approximately $55,000 for FYs 2004
    through 2006, recoupment of which should             Response
    result in $50,170 in potential monetary              The Assistant Secretary of Defense (Health
    benefits to DoD.                                     Affairs) concurred and plans to include these
•   We identified duplicate payments at three            payments in the new TRICARE Overseas
    Air Force military treatment facilities that         Program contract to be awarded in FY 2009.
    used an interim payment process that                 The Surgeon General of the Air Force concurred
    violated the Miscellaneous Receipts Act and          and plans to issue guidance to all overseas
    increased the risk of duplicate payments.            military treatment facilities to cease depositing
•   Significant potential exists for host-nation         checks from TRICARE health care claims
    providers, patients, and military treatment          processors into their accounts. The comments
    facility employees to abuse the payment              by the Assistant Secretary of Defense (Health
    processes.                                           Affairs) and the Surgeon General of the Air
                                                         Force were responsive and meet the intent of the
What We Recommend                                        recommendations. We also received comments
                                                         from the Defense Finance and Accounting
We recommend that the Assistant Secretary of             Service.
Defense (Health Affairs):


                                                     i
                Report No. D-2008-136 (Project No. D2007-D000LF-0227.000)
                                    September 30, 2008

Recommendations Table
Client                           Recommendations            No Additional Comments
                                 Requiring Comment          Required
Assistant Secretary of Defense                              1.
(Health Affairs)

Surgeon General of the Air                                  2.
Force




                                           ii
Table of Contents

Results in Brief                                                             i

Introduction                                                                1

       Background                                                           1
       Objective                                                            2

Finding. Payments for Claims Associated With the Supplemental Health Care
Program                                                                     3

       Duplicate Payments                                                   3
       Independent Payment Processes                                        5
       Effects of Independent Payment Processes                             5
       Need for Transfer of Processing and Payment Responsibilities         6
       Solicitation for Overseas Claims Processor                           6
       Client Actions                                                       7
       Client Comments on the Finding and Our Response                      7
       Recommendations, Client Comments, and Our Response                   8

Appendix

       A. Scope and Methodology                                             11
             Review of Internal Controls                                    13
             Prior Coverage                                                 14

Client Comments

       Assistant Secretary of Defense (Health Affairs)                      15
       Department of the Air Force                                          20
       Defense Finance and Accounting Service                               21
Introduction
Background
The DoD Supplemental Health Care Program (SHCP) was established to pay private
sector health care providers who treat active-duty Service members. The SHCP also
covers health care services ordered by military treatment facility (MTF) providers for
non-active-duty Service members when the MTF provider maintains responsibility for
treating the patients. The SHCP in overseas locations covers patients referred by MTFs
to host-nation health care providers. A referral takes place when the overseas MTF
cannot provide the necessary health care and must rely on host-nation providers.

Officials from the Offices of the Army, Navy, and Air Force Surgeons General told us
that three Defense Finance and Accounting Service (DFAS) centers should be paying
most of the claims for overseas health care referred by MTFs. However, we could not
identify any guidance issued by the TRICARE Management Activity (TMA) that assigns
responsibility for making these payments. Additionally, some military installations make
payments for overseas referred health care. The patients or the host-nation providers
submit claims for the health care to the MTFs, which review the health care claims and
authorize payments by DFAS and military installations. DFAS and the military
installations are responsible only for paying the claims, not for certifying that the claims
are valid. Patients that use host-nation providers without being referred are not covered
under the SHCP. Patients or the host-nation providers submit claims for nonreferred
health care to claims-processing contractors. Although Surgeons General officials told us
that DFAS should be paying for the majority of the overseas referred health care,
Wisconsin Physician Services (WPS) also received and paid referred health care claims.
WPS, a subcontractor for the TRICARE South Regional contractor, is responsible for
paying for most of the nonreferred overseas health care. The Director of TMA manages
overseas health care purchased from host-nation providers.

TMA estimated that DFAS paid approximately $39.3 million in FY 2006 for referred
care. However, that estimate may not be accurate because no central database of referred
care exists, and referral records requested from overseas MTFs were sometimes missing
or incomplete. We determined whether multiple organizations were paying for the same
health care services by obtaining databases of referred health care from the overseas
MTFs and comparing data in those databases with payments made by TRICARE
contractors. According to the Offices of the Surgeons General of the Army, Navy, and
Air Force, 60 overseas MTFs referred patients to overseas providers; we received files
from 51 of the MTFs. We were able to match data for only 23 of the 51 MTFs from
which we received data because the databases from the remaining 28 MTFs were missing
dates of service or Social Security numbers. In addition, three of the MTF databases that
we were able to use were incomplete, missing records for referred health care for specific
fiscal years included in the request. We could not perform a complete review of
duplicate payments because of the missing and incomplete referred care data.




                                             1
Objective
The objective of the audit was to determine whether controls are adequate over payments
for patients referred to overseas health care providers under the Supplemental Health
Care Program. See Appendix A for a discussion of the scope and methodology and our
review of internal controls.




                                           2
Finding. Payments for Claims Associated
With the Supplemental Health Care Program
We identified duplicate payments by multiple organizations for claims associated with
the SHCP. Specifically, we identified 90 duplicate payments paid by multiple
organizations for referred overseas health care amounting to approximately $55,000 for
FYs 2004 through 2006. Additionally, we identified duplicate payments at three Air
Force MTFs that used DFAS to make interim payments using SHCP accounts and used a
TRICARE contractor to reimburse those accounts. Substantial risk exists that host-nation
providers, patients, and MTF employees could abuse the independent payment processes
of multiple payers to receive duplicate payments, significantly increasing unnecessary
costs to DoD. Additionally, the three MTFs using DFAS to make interim payments
violated section 3302 (b), title 31, United States Code (31 U.S.C. 3302 (b)), “Custodians
of Money,” commonly referred to as the “Miscellaneous Receipts Act,” by depositing
funds into their accounts without authority. To mitigate the risk of duplicate payments
resulting from the independent payment processes, DoD should transfer to a qualified
health care claims processor responsibility for processing and paying claims for overseas
referred health care. The Surgeon General of the Air Force should also issue guidance to
all overseas military treatment facilities to immediately discontinue depositing checks
from TRICARE health care claims processors to military treatment facility accounts.

Duplicate Payments
Using the limited overseas referred care data available from 23 overseas MTFs, we
identified 90 duplicate payments for referred overseas health care that WPS and DFAS or
overseas military installations made amounting to $55,081 from FYs 2004 through 2006.
However, before our review WPS recouped some of the funds for 10 of the 90 duplicate
payments, amounting to $4,910. If TMA recoups the remaining 80 duplicate payments,
its action should result in one-time potential monetary benefits of $50,170 to DoD
Account 97X0130 for the year in which the payments are recouped. We reviewed
approximately 22,000 records of care referred by MTFs. See the following table for the
results of our duplicate payment review.

          Results of Duplicate Payment Review, by Military Department
Reviewed Item                  Army       Navy     Air Force      Total
MTF referrals matched to        4,423      7,977      10,013     22,413
database of all overseas
payments made by TMA
contractors
Duplicate payments                 53          4          33         90*
Value of duplicate            $21,915    $17,014     $16,152    $55,081
payments
*We provided details to TMA on each of the duplicate payments under separate cover to allow
DoD to begin recouping them from the host-nation providers and patients.




                                                   3
To perform our duplicate payment reviews, we matched individual MTF referral
databases to a TMA contractor database that included payments made by WPS. We then
reviewed supporting documentation provided by WPS, DFAS, and installations that made
payments. However, we did not receive all of the databases requested from the overseas
MTFs, and some of the databases we received were missing critical information. Also
we were unable to review documentation for some of the potential duplicate payments we
identified because of missing or incomplete documentation. Therefore, we consider the
duplicate payments and amounts that we identified conservative.

Additionally, we identified duplicate payments at three Air Force MTFs that used DFAS
to make interim payments using SHCP accounts and used a TRICARE contractor to
reimburse those accounts. The three Air Force MTFs asked DFAS to pay for services
normally paid for by WPS, using the MTFs’ SHCP accounts until WPS made the
payments. The MTFs usually asked WPS to send them reimbursement checks, made
payable to the patient or a designated MTF employee. When the MTFs received checks
from WPS, MTF officials asked the patients to endorse the checks and then deposited
them in the MTFs’ SHCP accounts. Because the duplicate payments by WPS were
reimbursements to the MTF accounts, there were only minimal unnecessary costs to DoD
related to differences in calculating payments.

However, if the patient or the designated employee at the MTF received the check
directly, the patient or employee could have cashed the check and kept the funds instead
of turning over the check to the MTF. We reviewed check deposits for 33 of the 35 WPS
payments to the patients and MTF employees at two of the three MTFs. We did not find
any indications that patients or MTF employees received and retained the checks for their
personal use.

According to Air Force personnel, the MTFs are using the interim payments to pay
providers more quickly. Many of the personnel we spoke to during the audit expressed
concerns that, if timely payments are not made to the host-nation providers, the providers
may stop treating DoD beneficiaries. The MTFs rely heavily on these host-nation
providers for services to DoD beneficiaries that the MTFs cannot perform. Therefore,
timely payments to host-nation providers by the overseas health care claims processor are
critical to maintain the good relationships MTFs have established with the providers and
ensure continued treatment of DoD beneficiaries.

For most of the payments we reviewed, however, we found that WPS paid more quickly.
We were able to determine the amount of time it took for DFAS and WPS to make
payments for two of the three MTFs that use this interim payment process. We analyzed
35 payments for health care from four host-nation providers for the two MTFs and found
that WPS paid more quickly than DFAS for 24 of 35 payments and paid in the same
amount of time as DFAS for 2 of the 35 payments. Additionally, we identified multiple
payments made by TRICARE contractors for each of the four host-nation providers for
nonreferred care. For those payments, the interim payment process was not used, and the
providers continued to treat DoD beneficiaries.




                                            4
Independent Payment Processes
The duplicate overseas health care payments occurred because DoD used multiple
organizations with independent payment processes to pay for overseas health care. The
organizations did not access prior payment information from other organizations as part
of their payment processes. Also, we found inconsistencies in the way organizations
calculated benefits.

Access to Prior Payment Information
Organizations that pay overseas health care claims did not access prior payment
information from other paying organizations when making payments. The three DFAS
centers that we visited did not make their overseas health care payment information
available to TRICARE contractors, other DFAS centers, or military installations making
overseas health care payments. The three DFAS centers each use stand-alone systems
unique to the Military Departments that the DFAS centers serve. Additionally, the DFAS
centers and the installations that make payments do not compile their payment
information in a central database. Therefore, TRICARE contractors making overseas
health care payments could not access prior overseas health care payments made by
DFAS or the installations to determine whether claims submitted had already been paid.
Additionally, the individual DFAS centers could not determine whether claims submitted
by those centers had already been paid by other DFAS centers. WPS makes information
on its overseas health care payments available to patients and Government personnel
through a Web-based system. However, the payment procedures used by the three DFAS
centers we visited and the three MTFs we visited did not include accessing that system to
determine whether prior payments had already been paid. Without access to previous
payment information, the organizations processed health care claims without any
knowledge of whether those claims had already been paid by other organizations.

Inconsistencies in Benefit Calculations
Overseas MTFs and WPS also calculated benefits inconsistently for 15 of 100 health care
claims, resulting in overpayments of $5,599. We reviewed 100 health care claims sent to
both DFAS and WPS for the same health care. WPS denied charges for 13 of the
100 claims because they were for noncovered services. WPS also applied a deductible to
1 of the 100 claims, reducing DoD’s portion of the claim. However, MTFs authorized
DFAS to make payment in full for each of these health care claims.

Effects of Independent Payment Processes
As a result of the independent payment processes, substantial risk exists that host-nation
providers, patients, and MTF employees could exploit the weaknesses of the processes,
significantly increasing unnecessary costs to DoD. Also, the independent payment
processes allowed the three Air Force MTFs to request interim payments, which resulted
in making deposits to their SHCP accounts in violation of the Miscellaneous Receipts
Act.




                                            5
Risk of Unnecessary Costs to DoD
We did not find indications of fraudulent submission of health care claims for the
duplicate payments we identified. However, substantial risk exists that host-nation
providers, patients, and MTF employees could exploit the weaknesses in the independent
payment processes, significantly increasing unnecessary costs to DoD. Under the
current, completely separate payment processes, the organizations processing and paying
overseas health care claims do not view or track invoices being paid by other
organizations. Therefore, those organizations would continue to pay for claims already
paid by other organizations.

In a previous audit of TRICARE overseas controls, we found that controls were not
adequate to ensure third-party billing agencies were properly submitting overseas claims.
One billing agency exploited overseas payment control weaknesses and overcharged
DoD by approximately $100 million. Health care providers and patients could similarly
exploit the weaknesses we identified in this report.

Violation of Miscellaneous Receipts Act
The three Air Force MTFs that requested interim payments violated the Miscellaneous
Receipts Act by depositing checks received from WPS to their SHCP accounts. The
MTFs lacked the authority to retain funds from TRICARE claims processors. The Act
states that “an official or agent of the Government receiving money for the Government
from any source shall deposit the money in the Treasury as soon as practicable without
deduction for any charge or claim.”

Need for Transfer of Processing and Payment
Responsibilities
By transferring responsibility for processing and paying overseas referred health care
claims to a qualified health care claims processor, DoD could mitigate the risk of
multiple organizations with independent payment processes paying for the same overseas
health care. We could not determine why DFAS and some installations were responsible
for paying overseas referred health care claims while responsibility for paying for most
overseas care has shifted to health care claims processors. By allowing the MTFs,
DFAS, and installations to authorize or pay for referred overseas health care, DoD has
created independent payment processes that allow duplicate payments and create the
potential for fraudulent submission and reimbursement of overseas health care claims.

Additionally, TRICARE overseas claims processors that pay overseas claims have more
expertise than the overseas MTFs in reviewing overseas health care claims. The overseas
claims processors process more than 1 million health care claims per year and can
quickly determine whether services are covered and calculate patient cost shares and
deductibles.

Solicitation for Overseas Claims Processor
TMA developed a draft contract solicitation to rebid responsibility for payment of
overseas health care claims currently being paid by TRICARE health care claims


                                            6
processors. Objectives of the solicitation include processing health care claims,
achieving beneficiary and provider satisfaction, and developing and managing host-
nation provider services. The solicitation includes processing health care claims for some
categories of active-duty personnel and for the following categories of DoD beneficiaries
living outside the continental United States:

   •   TRICARE Overseas Program Prime,
   •   TRICARE Overseas Program Prime Remote-enrolled,
   •   TRICARE Standard,
   •   TRICARE for Life, and
   •   TRICARE Reserve Select.

The draft solicitation language allows TMA to add responsibilities in the future for
processing and paying for health care referred by MTFs. However, the draft does not
currently include those responsibilities. The draft solicitation states that claims for health
care referred by MTFs are within the scope of the contract and that the Government may
direct that these claims be processed and paid under this contract.

We commend TMA for including the option of adding care referred by MTFs in this
solicitation. However, TMA should consider including the responsibility for processing
and paying for care referred by MTFs in the contract solicitation before issuing it.
Timely transfer of responsibility for payment of overseas referred health care is essential
to reducing the risk of additional duplicate payments and potential fraudulent claims
submission. If the contract is not awarded, however, TMA should pursue other avenues
to transfer responsibility for processing and paying for overseas health care claims for
health care referred by military treatment facilities to a qualified health care claims
processor as quickly as possible.

Client Actions
TMA has already begun to take actions to mitigate the risk of duplicate payments. TMA
personnel are planning to require WPS to submit reports of overseas payments to
overseas MTFs. TMA plans to issue guidance to the overseas MTFs to require them to
review the WPS reports monthly to determine whether claims they receive have already
been paid by WPS. Implementation of these actions should help reduce the potential for
duplicate payments until TMA can transfer responsibility for paying for overseas referred
health care claims to a qualified health care claims processor.

Client Comments on the Finding and Our Response
Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary of Defense (Health Affairs) ASD(HA) nonconcurred with our
assessment that an internal control weakness existed. The Assistant Secretary stated that
TMA is in the process of assuming the adjudication and payment of all overseas claims
by a qualified health care claims processor under the TRICARE Overseas Program
contract. He also stated that TMA is establishing interim reporting procedures that will


                                              7
incorporate appropriate internal controls to mitigate the risk of potential duplicate
payments.

Our Response
We agree that the planned actions by TMA will mitigate the risk of duplicate payments.
However, until those actions are implemented, an internal control weakness exists that
allows multiple organizations to make duplicate payments for the same health care.

Defense Finance and Accounting Service Comments
The Director, Indianapolis Operations responded to a statement in our draft report that the
audit could not find any guidance assigning responsibility for making the payments
discussed in the report. The Director stated that the DoD Financial Management
Regulation and the DoD Guidebook for Miscellaneous Payments cover the payments
reviewed during the audit. The Director also stated that the wording in the draft report
may mislead the reader to believe that DFAS was derelict in its duty. He stated that
DFAS should not be misconstrued as a health care claims processor or the certifier of the
payments discussed in the report.

Our Response
We agree that the DoD Financial Management Regulation and the DoD Guidebook for
Miscellaneous Payments cover the payments reviewed during the audit. However, TMA,
which manages overseas health care purchased from host-nation providers, had not issued
guidance that assigned responsibility to make these payments. We changed the wording
of the report to reflect this. We also changed the wording of the report to clarify that
DFAS only makes payments on the claims reviewed in this report and that it does not
certify that the claims are valid.

Recommendations, Client Comments, and Our
Response
1. We recommend that the Assistant Secretary of Defense (Health Affairs):

       a. Transfer responsibility to a qualified health care claims processor for
          processing and paying claims for overseas health care referred by
          military treatment facilities.

       b. Recoup funds expended through duplicate payments identified during the
          audit (we provided details to TRICARE Management Activity on each of
          the duplicate payments under separate cover).

       c. Issue guidance to the Surgeons General of the Army, Navy, and Air Force
          stating that overseas military treatment facilities should not deposit
          checks from TRICARE health care claims processors into military
          treatment facility accounts.




                                              8
Assistant Secretary of Defense (Health Affairs) Comments
The ASD(HA) concurred. The Assistant Secretary stated that TMA plans to assume the
adjudication and payment for all overseas health care claims under the new TRICARE
Overseas Program contract to be awarded in FY 2009, with health care delivery to begin
in FY 2010. The Assistant Secretary stated that an interim process will be established
whereby reports of claims paid under the current overseas claims processing contract will
be distributed to TRICARE Area Offices and MTFs. MTF commanders will be required
to validate that their claims have not been paid by another source and certify that this
review was completed and no duplicate payments were identified. The Assistant
Secretary also recognized the $50,170 of potential monetary benefits the audit reported as
a one-time monetary benefit to the Defense Health Program and stated that recoupment
actions will be conducted by the respective Service Medical Departments. Additionally,
the Assistant Secretary stated that he sent a memorandum to the Service Assistant
Secretaries (Manpower and Reserve Affairs) requesting they discontinue the practice of
making interim payments for non-referred health care and depositing reimbursements
from TRICARE health care claims processors into MTF accounts. The Assistant
Secretary included the memorandum dated July 3, 2008, with his comments on this
report.

Our Response
The ASD(HA) comments are responsive. The actions planned and taken by the Assistant
Secretary satisfy the intent of the recommendation.

Air Force Comments
Although not required to comment on Recommendation 1.a., the Surgeon General of the
Air Force stated that his office will comply with the Assistant Secretary’s resolution of
the finding when it is published. The Surgeon General stated that, until that time, the
MTFs will need to continue paying for overseas referred health care claims using
overseas Purchased Health Care funds. The Surgeon General also stated that the MTFs
will not seek reimbursement from health care claims processors and will conduct
payment reconciliations with those claims processors to mitigate duplicate payments.

Defense Finance and Accounting Service Comments
Although not required to comment on Recommendation 1.b., the Director, Indianapolis
Operations stated that any collection efforts for duplicate payments made by a DFAS site
must be coordinated with the site responsible for the accounting of the charged entity.

2. We recommend that the Surgeon General of the Air Force issue guidance to all
overseas military treatment facilities to immediately discontinue depositing checks
from TRICARE health care claims processors to military treatment facility
accounts.




                                            9
Air Force Comments
The Surgeon General of the Air Force concurred. The Surgeon General stated that his
office would issue guidance to all overseas MTFs to immediately cease depositing checks
from TRICARE health care claims processors to MTF accounts.

Our Response
The Surgeon General of the Air Force comments are responsive. The actions planned by
the Surgeon General satisfy the intent of the recommendation.




                                          10
Appendix A. Scope and Methodology
We conducted this performance audit from September 23, 2007, through July 24, 2008,
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

The audited entities included the ASD(HA); TMA; the Offices of the Surgeons General
of the Army, Navy, and Air Force; DFAS Limestone; DFAS Rome; DFAS Japan; WPS;
and three MTFs in Japan (BG Crawford F. Sims U.S. Army Health Clinic, U.S. Naval
Hospital Yokosuka, and the 374th Medical Group Yokota). We did not visit any of the
military installations that make payments for overseas referred care.

We interviewed personnel at WPS, DFAS, and the MTFs we visited. We reviewed
procedures and controls used in processing and paying overseas health care claims at
WPS and the DFAS centers. We reviewed procedures and controls used to make and
track referrals to host-nation providers and procedures and controls used to authorize
payments for referred care at the three MTFs we visited.

We reviewed public laws, the Code of Federal Regulations, and DoD and TMA
regulations to identify procedures and requirements established for the SHCP related to
patients referred to host-nation providers. Specifically, we reviewed 31 U.S.C. 3302 (b),
“Custodians of Money,” commonly referred to as the “Miscellaneous Receipts Act”;
Code of Federal Regulations, Title 32, Chapter 2, Section 199.7, “Claims Review,” and
Section 199.16, “Supplemental Health Care Program for Active Duty Members”; and
TRICARE Policy Manual 6010.54-M, August 1, 2002, Chapter 12, Section 11.1,
“Managed Care Support Contractor Responsibilities for Claims Processing.” The dates
of the documents reviewed range from February 21, 1996, through March 21, 2008.

Duplicate Payment Review
We reviewed whether controls were adequate over payments for patients referred to host-
nation providers by determining whether duplicate payments were made by DFAS, some
military installations, and WPS. We obtained files from different organizations paying
overseas health care claims, we reviewed supporting documentation, and we reviewed
interim payments made for nonreferred care using SHCP funds.

Health care claims for patients who are not referred by MTFs, such as retirees living
overseas and patients treated in remote locations, are paid under six different TRICARE
contracts. WPS, a subcontractor for the TRICARE South Regional contractor, is
responsible for paying for most of the overseas health care. We limited our review to
DFAS, the overseas military installations that make payments, and WPS.




                                            11
Request for Databases
We attempted to obtain databases for all health care referred by overseas MTFs from
FY 2004 through FY 2006. However, no organization maintained a complete database of
payments for all overseas referred health care. According to the Offices of the Surgeons
General of the Army, Navy, and Air Force, 60 overseas MTFs referred patients to
overseas providers; we received files from 51 of these MTFs. We were able to match
data for only 23 of 51 MTFs from which we received data because the databases from the
remaining 28 MTFs were missing dates of service or Social Security numbers. In
addition, three of the MTF databases that we were able to use were incomplete, missing
records for referred health care for specific fiscal years included in the request. We could
not perform a complete review of duplicate payments because of the missing and
incomplete referred care data. We assumed that all of the data included in the databases
we received were for referred care. See table for a summary of our MTF referral
database request.

                                MTF Referral Database Request
MTF Information                    Army          Navy         Air Force                       Total
MTFs generating                     36            11             13                            60
referrals*
MTFs from which we                      30                10                  11                51
received databases
MTF databases we were                   10                 5                   8                23
able to match
MTF databases with all                  10                 4                   6                20
requested fiscal years
that we were able to
match
*
 Data for number of MTFs generating referrals are based on information provided to us that we could not
verify.

Additionally, we used data obtained for a previous audit from the Purchased Care Detail
Information System. The data included all TRICARE contractor payments for overseas
care with dates of service from FY 2004 through July 2006. Because the data were
collected in July of 2006 and TRICARE health care claims may be submitted up to 12
months past the date of service, our audit results may not reflect all eligible claims,
especially for FY 2006. We determined whether multiple organizations were paying for
the same health care services by comparing these databases using dates of service and
Social Security numbers.

Review of Supporting Documentation
We identified potential duplicate payments by matching MTF databases to data from the
Purchased Care Detail Information System. However, we limited our review to potential
duplicate payments made by WPS because it makes the majority of overseas contractor
payments. We then attempted to obtain from WPS, DFAS centers, and military
installations supporting documentation including host-nation provider invoices,
authorizations for payment, and documentation showing payment was made.


                                                   12
We compared the documentation received from the three DFAS sites and some military
installations that make payments for overseas referred health care with the documentation
received from WPS to determine whether multiple organizations made payments to the
host-nation providers or patients. When we found that multiple organizations had made
payments for the same claim, we calculated the amounts of those overpayments. We
reduced the potential monetary benefits for the amounts that had already been recouped
prior to our review. Additionally, we reviewed 100 claims for the same services paid by
both DFAS and WPS to determine whether the organizations processed the payments
consistently.

Interim Payments
We reviewed an interim payment process at three MTFs for care that was not referred by
the MTFs. We identified those payments through our database matches for two MTFs
because the MTFs were requesting DFAS to make interim payments using SHCP funds
and then seeking reimbursement from WPS. We identified the payments for one MTF by
visiting it and reviewing its internal controls for authorizing payments. We reported on
those payments because SHCP funds were used to pay for that care.

Review of Internal Controls
We identified an internal control weakness for the Assistant Secretary of Defense (Health
Affairs) (ASD[HA]) as defined by DoD Instruction 5010.40, “Managers’ Internal Control
(MIC) Program Procedures,” January 4, 2006. The ASD(HA) did not establish adequate
internal controls over payment processes for overseas health care to ensure that duplicate
payments were not made by different organizations.

Because of limited data available for our review, we could not determine the magnitude
of the weakness. In two previous audit reports, we reported internal control weaknesses
in the TRICARE Overseas Program that relate to overseas claims- processing and
payment procedures (Report Number D-2008-045 and Report Number D-2006-051).
This report further documents control weaknesses in overseas claims processing.
Implementing the recommendations in the previous reports and implementing
Recommendation 1. in this report will reduce the potential for duplicate payments by the
different organizations.

Use of Computer-Processed Data
We used data from the Purchased Care Detail Information System to identify potential
duplicate payments. We did not perform a formal reliability assessment of the computer-
processed data. However, during the review we established reliability for the specific
potential duplicate payments by comparing claims documentation with the information
provided from the Purchased Care Detail Information System. The comparisons showed
that the data were sufficient to support the conclusions. We limited our results to the
potential duplicate payments for which we obtained documentation, and we did not make
any statistical projections.




                                           13
Use of Technical Assistance
We used the Quantitative Methods Directorate of the DoD Office of the Inspector
General to generate an extract from the Purchased Care Detail Information System
database that we obtained from a previous audit of Controls Over the TRICARE
Overseas Health Care Program.

Prior Coverage
No reports on payments for overseas referred health care were issued during the last
5 years.




                                           14
Assistant Secretary of Defense (Health Affairs) Comments




                   Click to add JPEG file




                                  15
Click to add JPEG file




               16
Click to add JPEG file




               17
Click to add JPEG file




               18
Click to add JPEG file




               19
Department of the Air Force Comments




                  Click to add JPEG file




                                 20
Defense Finance and Accounting Service Comments




                  Click to add JPEG file




                                 21
Click to add JPEG file




               22
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support Directorate prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report are
listed below.

Joseph R. Oliva
Robert F. Prinzbach II
Michael A. Joseph
James A. O’Connell
James F. Degaraff
Kimberly D. Brothers
LaToya H. Garner
Kimberly M. Crenshaw
H. David Barton
Allison E. Tarmann
